CASE No. 20-978

In The Supreme Court of the United States

POPPI METAXAS,
Petitioner,
v.
UNITED STATES OF AMERICA,
Respondent.
On Petition for Writ of Certiorari
to the
United States Court of Appeals
for the Second Circuit
PETITION FOR REHEARING
Brandon Sample
Brandon Sample PLC
P.O. BOX 250
Rutland, Vermont 05702
Tel: 802-444-4357
Fax: 802-779-9590
Email: Brandon@brandonsample.com
Counsel for Petitioner

Pursuant to Rule 44.2 of this Court, Poppi Metaxas
respectfully petitions for rehearing of the Court’s
denial of her petition for a writ of certiorari.
1.
On March 26, 2020, the district court denied
Metaxas’ 28 U.S.C. § 2255 motion.
2.
On September 17, 2020, the U.S. Court of
Appeals declined to issue a certificate of
appealability.
3.
Metaxas’ federal supervised release expired
on December 27, 2020.
4.
Because Metaxas was no longer on
supervised release when the Court considered her
petition for a writ of certiorari, she was required to
identify collateral consequences for a live case or
controversy to exist. Spencer v. Kemna, 523 U.S. 1,
11 (1998) (“it is the burden of the 'party who seeks
the exercise of jurisdiction in his favor,' 'clearly to
allege facts demonstrating that he is a proper
party to invoke judicial resolution of the
dispute.'").
5.
Metaxas—for the purpose of these
proceedings—did not and does not assert the
existence of any collateral consequences.
6.
This Court has long recognized that, “[w]hen
a civil case becomes moot pending appellate
adjudication, ‘the established practice . . . in the
federal system . . . is to reverse or vacate the
judgment below and remand with a direction to
dismiss.’” Arizonans for Official English v.
2

Arizona, 520 U.S. 43, 71, (1997). Vacatur is
appropriate where “mootness occur[ed] through
happenstance--circumstances not attributable to
the parties.” Id.
7.
Section 2255 proceedings are “civil” in
nature. United States v. Hadden, 475 F.3d 652,
666 (4th Cir. 2007).
8.
Based on the above there was no live case or
controversy when the Court denied certiorari.
CONCLUSION
Because there was no live case or controversy
when the Court denied certiorari, the Court should
agree to rehear this matter, dismiss the petition
for a writ of certiorari, and vacate the judgment of
the court of appeals with instructions to dismiss
Metaxas’ 28 U.S.C. § 2255 motion as moot.
Respectfully submitted,
/s/Brandon Sample
Brandon Sample
Brandon Sample PLC
P.O. BOX 250
Rutland, Vermont 05702
Tel: 802-444-4357
Fax: 802-779-9590
Email: Brandon@brandonsample.com
Counsel for Petitioner

3

